OFFICE OF INSPECTOR GENERAL


AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION-
FUNDED FRUIT TREE
PRODUCTIVITY PROJECT IN
MOROCCO

AUDIT REPORT NO. M-000-12-005-P
JUNE 15, 2012


WASHINGTON, D.C.
Office of Inspector General


June 15, 2012

Mr. Patrick Fine
Vice President, Department of Compact Operations
Millennium Challenge Corporation
875 15th Street, NW
Washington, DC 20005

Dear Mr. Fine:

This letter transmits the Office of Inspector General’s report on the “Audit of the Millennium
Challenge Corporation-Funded Fruit Tree Productivity Project in Morocco.” In finalizing the
report, we considered your written comments on our draft report and included those comments
in their entirety in Appendix II of this report.

The report contains six recommendations to strengthen the Millennium Challenge Corporation’s
policies and procedures. We consider that management decisions have been reached on all six
recommendations.

I appreciate the cooperation and courtesy extended to my staff during this audit.




                                             Sincerely,
                                              
                                             /s/ 
                                              
                                             Richard J. Taylor
                                             Deputy Assistant Inspector General
                                             for Audit
                                             Millennium Challenge Corporation




Millennium Challenge Corporation
1401 H Street NW
Suite 770
Washington, DC 20005
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 3 


     Sustainability of Olive Trees Is At Risk ................................................................................... 3 


     Millennium Challenge Account-Morocco

     Conducted Limited Oversight

     of Training Contractor ............................................................................................................. 4 


     Training Provided to Underage Youth..................................................................................... 4 


     Training Reported May Be Inaccurate .................................................................................... 5 


     Millennium Challenge Account–Morocco

     Cars Were Not Marked ........................................................................................................... 5 


Other Matters............................................................................................................................... 7 


     Catalyst Fund Activity Faces Tight Time Frames.................................................................... 7 


     Web Site Was Not Current...................................................................................................... 7 


Evaluation of Management Comments..................................................................................... 8 


Appendix I—Scope and Methodology .................................................................................... 10 


Appendix II—Management Comments ................................................................................... 12 

SUMMARY OF RESULTS 

The Millennium Challenge Corporation (MCC) signed a 5-year, $697.5 million compact with the
Government of the Kingdom of Morocco in August 2007. The compact aims to stimulate
economic growth through investments in five projects. At nearly $329 million,1 the largest of the
projects is the Fruit Tree Productivity Project. It focuses on:

	 Rehabilitating and expanding olive, almond, and fig tree orchards in rain-fed areas
   ($143 million).2 The rehabilitation activity involves training farmers in techniques designed to
   increase production in existing orchards. The expansion activity involves planting new trees
   in areas previously planted with lower-value cereal crops.

	 Improving the irrigation of olive and date trees ($141 million). The activity upgrades existing
   irrigation canals and helps farmers increase production.

	 Conducting sector services activities ($20 million). This includes activities such as market
   research that support the overall project goals.

	 Awarding grants for building olive oil processing facilities ($21 million).

The Millennium Challenge Account-Morocco (MCA-M) is the host-government entity charged
with implementing the terms of the compact. The compact entered into force in September
2008 and is scheduled to end in September 2013. As of September 2011, MCA-M had
committed nearly $500 million of the Morocco compact.

The objective of this audit was to determine whether the rain-fed rehabilitation and expansion
activity within the MCC-Funded Fruit Tree Productivity Project was achieving its project activity
goals.

The Office of Inspector General (OIG) found that the activity was not achieving its goals as
stated in the compact. In particular, MCC and MCA-M re-scoped the project in October 2010 to
reduce the expansion activity by nearly 50 percent. Originally the compact called for planting
approximately 120,000 hectares of new olive, almond, and fig trees. However, during the
project’s implementation, MCC and MCA-M determined that the project faced a serious budget
shortfall. MCC officials said the shortfall arose because contractors’ bids were higher than
expected due to rising prices and the contractors’ concerns about meeting MCC’s stringent
requirements, like requiring a high survival rate for the newly planted seedlings. As a result of
the shortfall, MCC and MCA-M reduced the amount of hectares to be planted to approximately
62,000, and the number of beneficiaries from approximately 63,000 farm households to
approximately 34,000.

The original scope of the expansion activity also included planting approximately 5,000 hectares
of fig trees. However, MCC officials said MCA-M determined that the project’s resources were
better used to support the larger amount of olive and almond trees, so they eliminated the


1
   This amount includes $3.67 million for project management.

2
   Rain-fed agricultural areas typically receive enough water from rainfall and do not need regular 

irrigation.


                                                                                                        1
relatively small number of fig trees. MCC and MCA-M expect to achieve the revised goal for the
expansion activity and the original goal for the rehabilitation activity.

Subsequent to MCC and MCA-M’s re-scoping of the Fruit Tree Productivity Project, the
Moroccan Government provided $35 million to plant 22,000 of the hectares that had been
eliminated from the project. Some of the planning and oversight funding for these hectares was
provided by the compact.

The audit also found the following:

	 The sustainability of olive trees was at risk because they may receive less maintenance than
   intended in the project’s design (page 3).

	 MCA-M’s oversight of the training contractor was limited. MCA-M relies heavily on the
   contractor to report that the training is being provided (page 4).

	 The contractor trained underage youth (page 4).

	 Reported training may be inaccurate because the definition of one of the indicators
   measured is unclear (page 5).

	 MCA-M cars were not marked to identify their affiliation with MCA-M (page 5).

To address these concerns, the report recommends that MCC’s Vice President, Department of
Compact Operations:

1. 	 Direct MCA-M to develop and implement a written plan for mitigating the risk that certain
     trees may be adversely affected if they receive less maintenance than intended, either from
     contractors or farmers (page 3).

2. 	 Direct MCA-M to develop and implement a written plan for strengthening oversight of the
     contractor responsible for providing training to farmers and youth in the rain-fed
     rehabilitation activity (page 4).

3. 	 Direct MCA-M to clarify in writing the contract for training in the rain-fed rehabilitation activity
     to specify 15 as the minimum age for training participants (page 5).

4. 	Review and clarify the definition of the “farmers trained” indicator in the monitoring and
    evaluation plan for the rain-fed rehabilitation activity (page 5).

5. 	 Verify that the data reported for the “farmers trained” indicator in the rain-fed rehabilitation
     activity is accurate and document the verification (page 5).

6. 	Direct MCA-M to comply or justify its noncompliance with MCC’s branding guidance
    regarding the marking of material visible to a significant portion of the population (page 6).

Detailed findings appear in the following section. Appendix I describes the audit scope and
methodology. Appendix II presents MCC’s comments. Our evaluation of management
comments is on page 8.



                                                                                                       2
AUDIT FINDINGS 

Sustainability of Olive Trees
Is At Risk
The rain-fed expansion activity aims to increase farmers’ incomes by planting new trees that
eventually will produce fruit. However, the sustainability of certain trees is at risk because they
may receive less maintenance than intended in the project’s design.

According to MCC and MCA-M officials, the olive tree contractors for the rain-fed expansion
activity are required to plant the trees, return three times to monitor and maintain them over the
course of the 2-year contracts, and make sure that all are viable when the contracts end.
Maintenance may include providing fertilizer, for example, to help the trees grow and survive.
Once the contractors have completed their work, the farmers will be responsible for maintaining
the trees.

However, because development of the technical details for planting the trees took longer than
MCA-M anticipated, some of the planting was delayed, and that reduced the time available for
maintenance by the contractors. As a result, some of the contractors will not have time within
the scope of their 2-year contracts to conduct the maintenance as intended. MCA-M officials
said trees on 15,000 hectares, or roughly 25 percent of the total planted, may not receive the
maintenance originally intended.

Furthermore, some farmers may not be able to properly maintain the trees once the contractors
have finished. Contractors, government officials, and farmers expressed concern that while the
farmers may understand what is needed, they may have limited resources, such as fertilizer,
pesticides, and occasional irrigation, for the trees until they reach maturity at approximately
5 years.

MCC officials said they chose 2-year contracts because the trees are viable after 2 years even
though they do not come to fruition for 5 years. MCC and MCA-M officials said they were not
concerned about the trees’ survival because the farmers should be able to maintain the trees
themselves, along with the help of the farmer cooperatives to which most farmers belong and
the assistance of the local government officials who have been involved with the project.

However, the farmers’ incomes will increase only if the trees survive and begin producing olives.
If the trees are not properly maintained and therefore do not survive, the success of the project
will be at risk. To address this concern, this audit makes the following recommendation.

   Recommendation 1.          We recommend that the Millennium Challenge Corporation’s
   Vice President, Department of Compact Operations, direct the Millennium Challenge
   Account-Morocco to develop and implement a written plan for mitigating the risk that
   certain trees may be adversely affected if they receive less maintenance than intended,
   either from contractors or farmers.




                                                                                                 3
Millennium Challenge
Account–Morocco
Conducted Limited Oversight
of Training Contractor
Standards for Internal Control in the Federal Government states that qualified, continuous
supervision of contractors is necessary to be sure objectives are achieved. However, MCA-M
conducted limited oversight of the contractor providing training for the rain-fed rehabilitation
activity. The contractor was responsible for providing training to more than 30,000 farmers and
youth to help them learn techniques like pruning that would increase olive production and
ultimately increase the farmers’ incomes.

MCA-M relies heavily on the contractor to report on the training for the rehabilitation activity.
MCA-M does not have procedures in place for documenting its review of the contractor’s
performance to confirm that training has taken place and that payment to the contractor is
justified.

MCA-M officials told OIG that the contractor sends monthly progress reports and meets with
MCA-M at the contractor’s office. Officials from other Moroccan government agencies also help
provide oversight. MCA-M officials said that they and the other government officials conduct
periodic field visits to monitor the contractor’s work, but because of the project’s large
geographical scope, field visits are not always possible.
 
MCA-M’s limited oversight increases the risk that the training will not be provided to farmers and
youth as intended. Without proper training, they will not learn the techniques necessary for
increasing production and their incomes, thus jeopardizing the project’s objectives. In addition,
without proper oversight and documentation, MCA-M risks making improper payments to the
contractor. To address this concern, this audit makes the following recommendation.

   Recommendation 2. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, direct the Millennium Challenge
   Account-Morocco to develop and implement a written plan for strengthening oversight of
   the contractor responsible for providing training to farmers and youth in the rain-fed
   rehabilitation activity.

Training Provided to
Underage Youth  

According to MCC, the training provided to farmers in the rehabilitation activity should target
people between 15 and 40 years old, in accordance with generally accepted standards of
professional practice and Moroccan law. In our review of training attendance records, however,
OIG found that some participants were younger than 15. MCC officials said the training contract
did not specify a minimum age for participants, but MCA-M was developing additional guidance
to make sure the minimum age of 15 was respected.

Training youth younger than 15 would conflict with generally accepted standards of professional
practice in Morocco and could interfere with school attendance. To address this concern, this
audit makes the following recommendation.


                                                                                                4
   Recommendation 3. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, direct the Millennium Challenge
   Account-Morocco to clarify in writing the contract for training in the rain-fed rehabilitation
   activity to specify 15 as the minimum age for training participants.

Training Reported
May Be Inaccurate
MCC’s Monitoring and Evaluation Policy states that the definition of an indicator should be
operationally precise with no ambiguity about what is being measured or how to interpret the
results. Further, the policy states that quality data are essential to ensuring a high level of
confidence in decisions made using that data.

The monitoring and evaluation plan for Morocco does not clearly define “farmers trained,” one of
the indicators for the rain-fed rehabilitation activity. Within that activity, farmers receive training
on techniques designed to increase production. Training sessions take place over 4 days, and
farmers are required to sign in each day. MCA-M officials said they had originally intended to
count farmers as trained once a farmer had attended all four sessions, but in practice many
farmers attend fewer than four sessions. Consequently, MCA-M reviews attendance records for
the four sessions and reports the highest attendance figure. As a result, the number of farmers
reported as trained may be inaccurate. To address this concern, this audit makes the following
recommendations.

   Recommendation 4. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, review and clarify the definition of the
   “farmers trained” indicator in the monitoring and evaluation plan for the rain-fed
   rehabilitation activity.

   Recommendation 5. We recommend that the Millennium Challenge Corporation’s Vice
   President, Department of Compact Operations, verify that the data reported for the
   “farmers trained” indicator in the rain-fed rehabilitation activity is accurate and document
   the verification.

Millennium Challenge
Account–Morocco
Cars Were Not Marked

MCC requires that the MCA logo or signature be placed on any material paid for with MCC
funds that is visible to a significant portion of the population.

MCA-M cars were not marked to identify their affiliation with MCA-M. MCC and MCA-M officials
were uncertain exactly why the cars were not marked, but said the MCC branding guidance was
very broad and open to interpretation. The officials also speculated that the cars might not be
marked because of security concerns in the region.

Decisions made regarding branding should be considered and justified appropriately to be sure
that the MCC project maximizes outreach. To address this concern, this audit makes the
following recommendation.


                                                                                                     5
Recommendation 6. We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, direct the Millennium Challenge
Account-Morocco to comply or justify its noncompliance with the Millennium Challenge
Corporation’s branding guidance regarding the marking of material visible to a significant
portion of the population.




                                                                                             6
OTHER MATTERS 

Catalyst Fund Activity
Faces Tight Time Frames 
 
The success of the rain-fed rehabilitation and expansion activity depends largely on the
availability of processing facilities to accommodate the increased olive production.

MCC and MCA-M officials said that when they designed the Fruit Tree Productivity Project, they
included technical assistance for olive oil processors and expected that private investors would
build additional processing facilities to meet the increased demand. However, private
investment did not occur. As a result, when compact funds became available because of a
reduction in the Artisan and Fez Medina Project, MCC and MCA-M used them to establish the
Catalyst Fund Activity within the Fruit Tree Productivity Project in August 2011.

The Catalyst Fund was designed to award grants—cofinanced by Morocco’s primary agricultural
bank—for building olive oil processing facilities. However, because the fund began late in the
compact’s implementation, the activity faces tight time frames. The grantees need to complete
several tasks, such as securing land, awarding a construction contract, and completing the
processing facilities, by November 2012 in order to process olives at least once before the
compact ends. If the processing facilities are not built by then, MCC will lose its ability to
evaluate the facilities’ effectiveness because the compact will have ended before the facilities
are used. Further, if the processing facilities are not constructed, farmers might not have
sufficient support for their increased olive production.

While the Catalyst Fund activity faces tight time frames, MCC has taken steps to support the
activity’s success. As a result, OIG is not making a recommendation on this issue.

Web Site Was Not Current
The MCA-M Web site makes current information about compact activities available to the public.
Until March 2012, the site stated that the rain-fed activity would target 120,000 hectares.
However MCC and MCA-M reduced that number to 62,000 hectares in October 2010.

In addition, until May 2012 the MCA-M Web site suggested that the expansion activity would
include fig trees, but those trees had been eliminated. Without current information, the MCA-M
Web site presented an inaccurate view of the compact activities. However, because MCA-M
corrected the Web site when the inaccuracies were brought to its attention by OIG, OIG is not
making a recommendation on this issue.




                                                                                              7
EVALUATION OF MANAGEMENT
COMMENTS
MCC provided written comments on the draft report that are included in their entirety in
Appendix II of this report. MCC agreed with all six recommendations. Management decisions
have been reached on all six recommendations.

MCC agreed with Recommendation 1, to direct MCA-M to develop and implement a written plan
for mitigating the risk that certain trees may be affected adversely if they receive less
maintenance than intended, either from contractors or farmers. MCC will ask MCA-M to
develop and implement such a plan. In addition, MCC will prepare a closure plan for the project
that will serve as MCC’s recommended written plan for mitigating the risk mentioned above.
The project will also prepare a report for the Moroccan Government that summarizes its
accomplishments and lessons learned. OIG considers that a management decision has been
reached on this recommendation. Final action will occur when MCC receives MCA-M’s written
plan.

MCC agreed with Recommendation 2, to direct MCA-M to develop and implement a written plan
for strengthening oversight of the contractor responsible for providing training to farmers and
youth in the rain-fed rehabilitation activity. MCC will ask MCA-M to develop and implement such
a plan, which MCC expects to receive no later than December 31, 2012. OIG considers that a
management decision has been reached on this recommendation. Final action will occur when
MCC receives MCA-M’s plan.

MCC agreed with Recommendation 3, to direct MCA-M to clarify in writing the contract for
training in the rain-fed rehabilitation activity that 15 is the minimum age for training participants.
MCC will ask MCA-M to issue a notice to contractors that Moroccan law states clearly that
(1) 15 is the minimum age for training participants in the rain-fed rehabilitation activity and
(2) contracts as currently written require them to adhere to all current Moroccan laws and
regulations. MCC expects MCA-M to convey this message to contractors by December 31,
2012. OIG considers that a management decision has been reached on this recommendation.
Final action will occur when MCC issues the notice to contractors.

MCC agreed with Recommendation 4, to review and clarify the definition of the “farmers trained”
indicator in the monitoring and evaluation plan for the rain-fed rehabilitation activity. MCC will
review and clarify the definition of the “farmers trained” indicator. MCC currently is revising the
plan and expects to complete the revision no later than December 31, 2012. OIG considers that
a management decision has been reached on this recommendation. Final action will occur
when the plan is revised to include the clarification.

MCC agreed with Recommendation 5, to verify that the data reported for the “farmers trained”
indicator in the rain-fed rehabilitation activity is accurate and document the verification. MCC
will verify the data and document the verification. MCC will provide documented verification that
the data is accurate no later than December 31, 2012. OIG considers that a management
decision has been reached on this recommendation. Final action will occur when MCC provides
documented verification that the data is accurate.



                                                                                                    8
MCC agreed with Recommendation 6, to direct MCA-M to comply or justify its noncompliance
with the MCC branding guidance regarding the marking of material visible to a significant portion
of the population. MCC will ask MCA-M to justify the decision not to mark MCA-M vehicles.
MCC expects the justification no later than December 31, 2012. Final action will occur when
MCC receives the justification.




                                                                                               9
                                                                                   APPENDIX I 





SCOPE AND METHODOLOGY
Scope
OIG conducted this audit of the MCC-funded Fruit Tree Productivity Project in Morocco in
accordance with generally accepted government auditing standards. These standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions in accordance with our audit objective. We
believe that the evidence obtained provides that reasonable basis.

MCC signed a compact with the Government of the Kingdom of Morocco for $697.5 million that
entered into force in September 2008. This audit focused on the Fruit Tree Productivity
Project’s $143 million rain-fed expansion and rehabilitation activity.

We conducted our fieldwork from December 7, 2011, to April 11, 2012, at MCC headquarters in
Washington, D.C., and visited MCA-M in Rabat from January 23 to February 10, 2012. In
Morocco, we visited five expansion and three rehabilitation sites. The project’s large
geographical scope prevented the team from visiting additional sites during the time available.

To answer the audit objective, we met with MCC officials to gain an understanding of compact
activities. We visited Morocco to observe ongoing activities and interview MCA-M staff,
contractors, and program beneficiaries. We analyzed documents and reports to identify
concerns. Some documents, especially procurement documents, were excluded from our
review because they were in French, and the audit team did not have the time or resources to
translate all of them.

We examined the internal control environment by identifying and assessing the relevant controls
in the expansion and rehabilitation activity. We tested the controls in place for monitoring the
contractors involved with this activity. In particular, we reviewed MCA-M’s process for
inspecting contractors’ work, documenting the inspections, and using the documentation to
verify contractor invoices.

Methodology
The audit team met with MCC staff in Morocco and in Washington, D.C. In addition, we met
with MCA-M staff, contractors, and beneficiaries in Morocco.

To answer the audit objective, we established audit steps to determine whether MCC and
MCA-M were achieving the project activity goals. Specifically, we performed the following:

	 Interviewed MCC and MCA-M officials to gain an understanding of the project activities.

	 Interviewed contractors, Moroccan Government officials, other donors, and project
   beneficiaries to gain their perspectives on the risks facing the project.

	 Reviewed documents supporting the project activities, including the compact, due diligence
   documents, the monitoring and evaluation plan, contracts, and progress reports.


                                                                                             10
                                                                             APPENDIX I


	 Selected a random sample of billing documents from 7 of 30 contractors in the rain-fed
   expansion activity and traced them to supporting source documents.




                                                                                      11
                                                                                     APPENDIX II 





MANAGEMENT COMMENTS 





May 17, 2012

To:    Richard Taylor
       Assistant Inspector General
       Office of Inspector General
       U.S. Agency for International Development

From: Jonathan Bloom /s/
      Deputy Vice President of Compact Operations
      Millennium Challenge Corporation

Subject: Millennium Challenge Corporation Response to the Draft
Audit of the Millennium Challenge Corporation-Funded Fruit Tree Productivity Project in
Morocco

Dear Mr. Taylor:
 
The Millennium Challenge Corporation (MCC) appreciates the opportunity to respond to the
Office of Inspector General’s (OIG) draft report entitled “Audit of the Millennium Challenge
Corporation-Funded Fruit Tree Productivity Project in Morocco. MCC’s response to the OIG’s
audit recommendations are given below:

Recommendation 1. We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, direct the Millennium Challenge Account-
Morocco to develop and implement a written plan for mitigating the risk that certain trees may
be adversely affected if they receive less maintenance than intended, either from contractors or
farmers.

Management Response: MCC agrees with the recommendation and will request that
Millennium Challenge Account-Morocco develop and implement a written plan for mitigating
the risk that certain trees may be adversely affected if they receive less maintenance than
intended, either from contractors or farmers. MCC, however, would like to emphasize that


                                                                                                   12
                                                                                        APPENDIX II 



important elements of a plan for tree maintenance are already in place. Local Ministry of
Agriculture officials, many of whom received training from the Fruit Tree Productivity Project,
will continue to work with farmer cooperatives after the end of the Compact to ensure the
viability and sustainability of their trees. In addition, contracts for rain-fed expansion tree
planting require 100% viability of trees at reception. The reception process requires the approval
of the beneficiaries, the Provincial Department of Agriculture (DPA), the design and supervision
consultant, the project management unit and MCA-Morocco. Almost all of the planting funded
by the Compact has been completed and the reception process is underway for the first
expansion contract. The Closure Plan for the Project will serve as MCC’s recommended written
plan for mitigating the above-mentioned risk and will include a perimeter-by-perimeter schedule
for the reception of all expansion perimeters, which MCC will use to monitor this process
through the end of the Compact. MCC anticipates that the Closure Plan will be approved by
MCC by September 30, 2012. In addition, as part of closure activities, by August 31, 2013 the
Project will prepare a report for Maroc Plan Vert, the country’s long-term strategy for
development of the agricultural sector, summarizing its accomplishments and lessons learned in
rain-fed perimeters. In general, Plan Maroc Vert constitutes a set of actions and commitments to
supporting agricultural development for a large part of the country – and the Government will be
able to build on the investments made by the MCC for those areas included in the
Compact. This constitutes MCC’s Management Decision on this recommendation.

 Recommendation 2. We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, direct the Millennium Challenge Account-
Morocco to develop and implement a written plan for strengthening oversight of the contractor
responsible for providing training to farmers and youth in the rain-fed rehabilitation activity.

Management Response: MCC agrees with the recommendation and will request Millennium
Challenge Account-Morocco to develop and implement a written plan for strengthening
oversight of the contractor responsible for providing training to farmers and youth in the rain-fed
rehabilitation activity. MCC, however, would like to emphasize that there are already multiple
layers of oversight in place to monitor progress of training. In particular, the Project
Management Unit of the Ministry of Agriculture, which works closely with MCA-Morocco to
implement the Fruit Tree Productivity Project, plays a crucial role in oversight of the training
contractor, making regular site visits and closely monitoring progress. We expect MCA-
Morocco to develop their plan no later than December 31, 2012. This constitutes MCC’s
Management Decision on this recommendation.

Recommendation 3. We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, direct the Millennium Challenge Account-
Morocco to clarify in writing the contract for training in the rain-fed rehabilitation activity to
specify 15 as the minimum age for training participants.



                                                                                                     13
                                                                                       APPENDIX II 



Management Response: MCC agrees with the recommendation and will request that
Millennium Challenge Account-Morocco issue a notice to contractors that Moroccan law states
clearly that (i) 15 is the minimum age for training participants in the rain-fed rehabilitation
activity and (ii) contracts as currently written require them to adhere to all current Moroccan
laws and regulations. We expect that Millennium Challenge Account-Morocco will convey this
message to all relevant contractors via the Supervisory Engineer (TC-1A) no later than
December 31, 2012. This constitutes MCC’s Management Decision on this recommendation.

Recommendation 4. We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, review and clarify the definition of the farmers
trained indicator in the Monitoring and Evaluation Plan for the rain-fed rehabilitation activity.

Management Response: MCC agrees with the recommendation and will review and clarify the
definition of the farmers trained indicator in the Monitoring and Evaluation Plan for the rain-fed
rehabilitation activity. MCC is currently working to revise the Monitoring and Evaluation Plan
and expects that this will be complete no later than December 31, 2012. This constitutes MCC’s
Management Decision on this recommendation.

Recommendation 5. We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, verify that the data reported for the farmers
trained indicator in the rain-fed rehabilitation activity is accurate and document the verification.

Management Response: MCC agrees with the recommendation and will verify that the data
reported for the farmers trained indicator in the rain-fed rehabilitation activity is accurate and
document the verification. MCC will provide documented verification that the data is accurate
no later than December 31, 2012. This constitutes MCC’s Management Decision on this
recommendation.

Recommendation 6. We recommend that the Millennium Challenge Corporation’s Vice
President, Department of Compact Operations, direct the Millennium Challenge Account-
Morocco to comply or justify its noncompliance with the Millennium Challenge Corporation’s
branding guidance regarding the marking of material visible to a significant portion of the
population.

Management Response: MCC agrees with the recommendation and will request that
Millennium Challenge Account-Morocco justify the decision not to mark MCA vehicles. Upon
consultation with other U.S. Government agencies in Morocco, including USAID, vehicles are
often not branded due to security concerns. We expect that Millennium Challenge Account-
Morocco will submit their justification no later than December 31, 2012. This constitutes
MCC’s Management Decision on this recommendation.

If you have any questions, comments or concerns please feel free to contact me at 202.521.3894.


                                                                                                    14
                                       APPENDIX II 





CC:	    IG/MCC, Lisa Banks
        MCC/A&F, Aleta Johnson
        MCC/A&F/FMD, Arlene McDonald




                                                15
U.S. Agency for International Development 

       Office of Inspector General

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

           Fax: (202) 216-3047 

           www.usaid.gov/oig
